December 8, 2004

Ms. Vivian A. Arthur
Group Controller
American Association of Retired People
601 E Street, NW
Washington, DC 20049

Dear Ms. Arthur:

This is the final report resulting from the quality control review of the single audit
report of the American Association of Retired People (AARP) for the fiscal year ended
December 31, 2003. KPMG prepared the single audit report. The objectives of the
quality control review are to (1) ensure that the audit was conducted in accordance with
applicable standards and meets the single audit requirements, (2) identify any follow-
up audit work needed, and (3) identify issues that may require management attention.
The review was conducted during October 4 through 8, 2004, using the Uniform
Quality Control Review Guide for A-133 Audits issued by the President’s Council on
Integrity & Efficiency (PCIE), 1999 Edition.

The major programs included in our review were:

       CFDA
      Number               Program Name
      17.235               Senior Community Service Employment Program (SCSEP)
      21.006               Tax Counseling for the Elderly

Based on our review of KPMG, LLP working papers related to the programs above, we
believe the audit work performed is acceptable and meets the requirements of the
Single Audit Act Amendments of 1996 and OMB Circular A-133. No follow-up work is
needed and we have not noted any issues to be reported to the management.
This report was not provided in draft to KPMG, LLP because there were no issues noted
in our review. Therefore, we are issuing this report directly to you as Final Report
No. 22-05-515-50-598. If you have any questions concerning the results of the review,
please contact me at (202) 693-5164.

Sincerely,


Michael T. McFadden
Director
Office of Accountability Audits

cc: Richard T. McKinless, Partner, KPMG, LLP




                                         2
